OIG Audit Report GR-70-09-002

Bureau of Justice Assistance Grants Awarded to the County of Belknap
    
Laconia, New Hampshire
Audit Report GR-70-09-002
January 2009
Office of the Inspector General


Executive Summary


The U.S. Department of Justice (DOJ) Office of the Inspector General, Audit Division, has completed an audit of the Edward Byrne Memorial Justice Assistance Grants, Numbers 2004 DD BX 1171, 2005-DJ-BX-0852, and 2006-DJ-BX-1044, in the amount of $520,901 awarded by the Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA), to the County of Belknap, New Hampshire (Belknap).  The purpose of the first grant was to create and support a regional law enforcement special operations group.  The second grant was to pay for law enforcement officer overtime related to fugitive apprehension in Belknap County.  The third and final grant in our audit was to be used to acquire a thermal imaging device.
The objective of this audit was to determine whether reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.  We also assessed grantee program performance in meeting grant objectives and overall accomplishments.
We determined the sheriff of Belknap County inappropriately and without prior knowledge and authorization from BJA, effectively transferred the management of these grants, including the financial responsibilities, to a nonprofit organization.  We further determined this organization lacked adequate internal controls, including a financial accounting system, and was not audited during the period these grants were active.  We also identified deficiencies in the financial and progress reporting for the grants.
These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology are discussed in Appendix I.
We discussed the results of our audit with Belknap County officials and have included their comments in the report, as applicable.  In addition, we provided Belknap County and OJP a copy of the draft report and their responses can be found in Appendices II and III.  Our analysis of both responses, as well as a summary of actions necessary to close the recommendations, can be found in Appendix IV of this report. 



 




Return to OIG Home Page